No. 19-

 

IN THE
Supreme Court of the United States

WALID JAMMAL, ET AL.,

Petitioners,
v.

AMERICAN FAMILY INSURANCE COMPANY, ET AL.,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

CERTIFICATE OF SERVICE

The undersigned certifies that he has this 22nd day of August 2019,
caused three copies of the foregoing Petition for a Writ of Certiorari to be
served on each of the below-named counsel by first-class mail, postage
prepaid, and further certifies that all persons required to be served have been
served:

Lauren S. Kuley Gregory V. Mersol

Scott W. Coyle Gilbert Brosky

Colter Paulson BAKER & HOSTETLER

SQUIRE PATTON BoGGs 127 Public Square, Suite 2000
221 E. Fourth Street, Suite 2900 Cleveland, OH 44114
Cincinnati, OH 45202 (216) 621-0200

(513) 361-1201 gmersol@bakerlaw.com
lauren.kuley@squirepb.com gbrosky@bakerlaw.com

scott.coyle@squirepb.com
colter.paulson@squirepb.com

 

rian H. Fletcher
Counsel for Petitioners
